October 19, 2000
Audit Report No. 00-047


Audit of American Pension
Management’s Administration of
Employee Benefit Plans for Failed
Financial Institutions
                                TABLE OF CONTENTS


BACKGROUND                                                                1

OBJECTIVES, SCOPE, AND METHODOLOGY                                        4

RESULTS OF AUDIT                                                          6

APM DID NOT PROVIDE DOCUMENTATION TO COMPLETE REQUIRED                    7
AUDITS

TRUSTEE ACCOUNT DISBURSEMENTS WERE APPROPRIATE                            8

APM DID NOT PROPERLY ACCOUNT FOR LITIGATION SETTLEMENT                    8
AWARDS

      Questionable Transactions Related to Centrust                       8

      Questionable Transactions Related to Goldome                        9

UNDISTRIBUTED AND DORMANT LITIGATION SETTLEMENT                           9
AWARD FUNDS

      Undistributed Centrust Litigation Settlement Award Funds           10

      Undistributed AmeriFirst Litigation Settlement Award Funds         10

      Litigation Settlement Award Funds in Dormant Accounts              11

ADDITIONAL GUIDANCE NEEDED FOR LITIGATION SETTLEMENT                     11
AWARDS

UNSUPPORTED APM BILLINGS                                                 12

CONCLUSIONS AND RECOMMENDATIONS                                          13

CORPORATION COMMENTS AND OIG EVALUATION                                  14


TABLES

Table 1: Summary of Litigation Settlement Awards That APM Administered    8

Table 2: Summary of FDIC Payments to APM                                 12
APPENDIXES

Appendix I: Corporation Comments                       15

Appendix II: Management Responses to Recommendations   20
Federal Deposit Insurance Corporation                                                                              Office of Audits
Washington, D.C. 20434                                                                                 Office of Inspector General




   DATE:             October 19, 2000

   TO:               A. J. Felton, Deputy Director
                     Division of Resolutions and Receiverships
                     Dallas Field Operations Branch

                     Arleas Upton Kea, Director
                     Division of Administration


   FROM:             Sharon M. Smith
                     Assistant Inspector General

   SUBJECT: Audit of American Pension Management’s Administration of Employee Benefit
            Plans for Failed Financial Institutions (Audit Report No. 00-047)


   This report presents the results of an audit of American Pension Management’s (APM)
   administration of pension plans for failed financial institutions. The Office of Inspector General
   (OIG) initiated the audit at the request of the Closed Banks Administration department head in
   the Division of Resolutions and Receiverships’ (DRR) Northeast Service Center (NESC) in
   Hartford, Connecticut. The department head requested the OIG’s assistance in reviewing
   activities related to APM’s administration of pension plans for Goldome Bank (Goldome) and
   Meritor Savings Bank (Meritor). We provided periodic briefings to employee benefits officials
   during the audit. We also issued a management letter to the NESC regarding the availability of
   records necessary to complete required audits. The NESC closed on June 30, 2000, and
   transferred its remaining workload to DRR’s Dallas Field Operations Branch.


   BACKGROUND

   When a regulatory authority closes a financial institution, the FDIC is appointed receiver and
   takes control of the closed institution’s assets and assumes the responsibility to administer the
                                                                                                     1
   failed financial institution’s pension plans—both retirement plans and incentive savings plans.
   Specifically, the FDIC becomes the plan administrator responsible for ensuring that (1) plan

   1
    Pension plans include defined benefit and defined contribution plans. Defined benefit plans—usually referred to as
   retirement plans—provide a set amount of benefits to the participant, and the Pension Benefit Guaranty Corporation
   (PBGC) insures them. Defined contribution plans are usually tax-deferred plans, such as incentive savings and 401K
   plans; do not guarantee a specific benefit; depend on each participant’s salary and level of contributions; and are not
   PBGC insured.
assets are safeguarded and appropriately distributed, (2) plans are terminated in a timely manner,
                                                                        2
and (3) reasonable efforts are made to locate missing plan participants. In addition, the FDIC
                                                                    3
becomes responsible for ensuring that litigation settlement awards related to failed financial
institutions’ pension plans are properly administered, safeguarded, and distributed. The FDIC
may perform plan administration services in-house or contract with an independent plan fiduciary
to administer pension plans and litigation settlement awards for the Corporation. The FDIC
and/or independent plan fiduciary may also use other outside contractors such as actuaries,
accountants, trustees, and law firms to administer and terminate pension plans and litigation
settlement awards and distribute funds.

The FDIC contracted with APM to provide independent plan fiduciary services for Goldome and
                                                    4
Meritor. The Resolution Trust Corporation (RTC) also contracted with APM to provide similar
services for Centrust Savings Bank (Centrust) and AmeriFirst Savings Bank (AmeriFirst). The
consolidation of FDIC and RTC offices and the FDIC’s subsequent assumption of RTC
operations affected responsibility for the oversight and administration of pension plans and
APM’s contractual agreements. For instance, responsibility for the Goldome and Meritor plans
and contracts transferred from the FDIC’s South Brunswick Consolidated Office in South
Brunswick, New Jersey, to the NESC. In addition, responsibility for the Centrust and AmeriFirst
plans and contracts transferred from the RTC’s Mid-Atlantic Consolidated Office in Atlanta,
Georgia, to the FDIC’s Southeast Service Center in Atlanta, Georgia, and finally to the Dallas
Field Operations Branch in Dallas, Texas.

As an independent fiduciary, APM administered (1) Goldome’s retirement plan, incentive
savings plan, and litigation settlement award; (2) Meritor’s retirement plan and incentive savings
plan; (3) Centrust’s incentive savings plan and litigation settlement award; and (4) AmeriFirst’s
litigation settlement award. In addition to administering the litigation settlement awards, APM
also distributed those funds to settlement participants except the Goldome award, which the
FDIC distributed.

Goldome maintained and administered two retirement plans—Goldome Retirement Plan and
Goldome Incentive Savings Plan. On January 10, 1992, the FDIC’s former South Brunswick
Consolidated Office executed an Administrative Service Provider and Independent Fiduciary
Agreement engaging APM as an independent plan fiduciary for the Goldome plans. According to
the NESC’s Employee Benefits Section (EBS) officials, the FDIC executed the agreement with
APM before the Corporation established formal contracting procedures through its Acquisition
Services Branch (ASB) and, accordingly, did not assign a contract number to the agreement. In
addition, APM began administering Goldome’s litigation settlement award in May 1993.

2
 Undeliverable or returned mail may identify missing plan participants. After the plan administrator makes reasonable
efforts to locate missing participants for defined benefit plans, the FDIC may turn undistributed pension plan funds over
to the PBGC or establish accounts at financial institutions for missing participants.
3
 Litigation settlement awards represent funds awarded to specific pension plan participants based on a legal
determination that the participants have been damaged (e.g., by actions of the failed financial institution, plan
administrator, or its agent).
4
 As provided in the RTC Completion Act of 1993, the RTC went out of existence on December 31, 1995, and the FDIC
took over its functions on January 1, 1996.


                                                             2
However, neither APM nor EBS officials could provide a copy of a contractual agreement for the
Goldome litigation settlement award.

On July 13, 1993, the South Brunswick Consolidated Office contracted with APM to perform
similar fiduciary services for the Meritor Pension Plan and Meritor Tax-Deferred Savings Plan.
APM’s administration of the Meritor plans was under basic ordering agreement 93-01504-N-RA,
task order 93-001, effective July 13, 1993. Through modifications and extensions, the FDIC
extended the contract period to December 31, 1996.

In addition to the Goldome and Meritor pension plans and Goldome litigation settlement award,
APM also administered the Centrust incentive savings plan and the Centrust and AmeriFirst
litigation settlement awards. In February 1991, the RTC appointed APM as administrator for the
Centrust incentive savings plan but did not specify contracting terms and conditions. In addition,
neither APM nor FDIC officials could provide copies of contracts for the Centrust litigation
settlement award. In November 1995, the RTC contracted with APM under agreement
0710-95-0074-001 to act as an independent plan fiduciary and trustee for AmeriFirst’s litigation
settlement award.

As administrator for the various plans, APM served as the primary contact for plan participants
and worked with actuaries, trustees, and legal and accounting firms to administer the plans and
calculate and distribute participant benefits. APM’s responsibilities included (1) instructing
                                               5
trustees on the distribution of pension funds, (2) distributing litigation settlement awards to plan
participants, (3) attempting to locate missing participants, and (4) assisting the FDIC in
terminating the plans.

As a fiduciary, APM’s control over participant funds varied. For instance, APM did not have
direct control over pension plan and incentive savings funds. Instead, APM instructed trustees
who managed and invested pension plan funds to distribute participants’ benefits via monthly,
lump sum, or rollover payments. On the other hand, APM established bank accounts for
litigation settlement awards for Goldome, Centrust, and AmeriFirst and had direct control over
those accounts. APM also distributed payments from the Centrust and AmeriFirst accounts to
litigation settlement participants. Although APM performed some administrative services for the
Goldome litigation settlement, it returned the funds from that settlement to the FDIC for
distribution to participants.

The FDIC had trouble getting APM to complete its contractual responsibilities and obtaining
pension plan records from APM. Accordingly, NESC’s EBS officials visited APM’s offices in
January 1998 and obtained some records from APM. After reviewing those records, EBS
officials (1) concluded that APM had not provided all pension plan-related documents in its
possession and (2) identified questionable transactions related to the Goldome litigation
settlement award. Subsequently, NESC’s Closed Banks Administration department head
requested the OIG’s assistance. Specifically, the department head asked that we (1) retrieve

5
 Trustees assist in administering retirement and incentive savings plan funds. Their duties include analyzing, investing,
and distributing retirement and incentive savings plan funds; paying plan expenses; and providing monthly reports on
plan activities.



                                                            3
additional plan documents necessary for the FDIC’s contracted audit firm to complete audits of
the Goldome and Meritor plans and (2) determine whether APM properly accounted for pension
plan funds.


OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to determine (1) the availability of records necessary to
complete audits of the Goldome and Meritor plans and (2) whether APM properly accounted for
pension plan funds for the Goldome and Meritor financial institutions. Because of questionable
transactions identified by EBS officials, we expanded the objectives to determine whether APM
billed the FDIC in accordance with contract terms and conditions. During the audit we expanded
the scope to review bank transactions and APM’s billings for Centrust’s and AmeriFirst’s
litigation settlement award accounts and APM’s billings for Centrust’s incentive savings plan.

To accomplish our objectives, we interviewed NESC officials in DRR’s Closed Banks
Administration and EBS and the Division of Administration’s (DOA) Acquisition Services
Branch. We also interviewed officials in DRR’s Employee Benefits Group (EBG) and the
Division of Finance (DOF) in the Dallas Field Finance Center. In addition, we interviewed
APM’s president to obtain an understanding of procedures used to distribute litigation settlement
awards, locate missing participants, and invoice the FDIC.

We reviewed EBS’s pension plan files for Goldome and Meritor and EBG’s pension plan files
for Centrust and AmeriFirst. We also obtained pension plan payment data from DOF officials.
We reviewed the FDIC’s manual entitled The Failed Financial Institution Employee Benefits
Termination Manual dated September 1995, which outlined pension plan administrator
responsibilities and policies and procedures for terminating receivership pension plans. We also
reviewed EBS’s procedures to pay, monitor, and track routine trust expenses, including
reimbursements to APM. In addition, we reviewed EBG’s reports used to track missing
participants and undistributed pension plan benefits for retirement and incentive savings plans.

Further, we reviewed ASB’s contracts and related correspondence files for Goldome, Meritor,
Centrust, and AmeriFirst. However, neither ASB nor employee benefits officials could locate a
formal contract for APM’s administration of the Goldome litigation settlement award or the
Centrust litigation settlement award.

We interviewed representatives of Manufacturers and Traders Trust Company (M&T) in Buffalo,
New York, and The Bank of New York (BONY) in New York, New York. Those financial
institutions served as trustees for the Goldome and Meritor plans, respectively. We reviewed
correspondence between the trustees, the FDIC, and APM and reviewed trustee reports that
documented the pension plans’ disbursements and investment activities. We also reviewed
copies of trust reports for the Centrust incentive savings plan provided by EBS. In addition, we
reviewed bank records and transactions related to the Goldome, Centrust, and AmeriFirst
litigation settlement awards, because APM acted as both the trustee and administrator for those
funds.



                                                4
To determine the availability of records necessary to complete audits of the Goldome and Meritor
plans, the OIG retrieved 30 boxes of records from APM related to FDIC failed financial
institutions during February 1999. We provided those records to EBS for use by its contracted
audit firm—McGladrey & Pullen in Fort Lauderdale, Florida—in completing audits of the
Goldome and Meritor plans. We also interviewed a representative from McGladrey & Pullen
and reviewed the firm’s audit files related to APM’s administration of the Goldome and Meritor
pension plans.

To determine whether APM properly accounted for pension plan funds for Goldome and Meritor,
we reviewed monthly, lump sum, and rollover disbursements and selected a random sample of
participant disbursements from those retirement plans. The sample consisted of 150 payments
from each plan. In addition, we selected a judgmental sample of 30 payments for Goldome and
Meritor participants for detailed review. Selection criteria for the judgmental sample included
items such as undelivered payments, unusual payment amounts and dates, and participant social
security numbers and last names. For various reasons, such as purged records, the plans’
trustees—M&T and BONY—could only locate 184 of the 330 sampled disbursements.
Accordingly, we reviewed 184 disbursements totaling $657,652. That sample represented
$507,537 or about 1.2 percent of the $42,223,167 that M&T disbursed from Goldome’s
retirement plan and $150,115 or about 1 percent of the $14,948,234 that BONY disbursed from
Meritor’s retirement plan.

To determine whether the 184 sampled disbursements were appropriate, we reviewed canceled
checks to determine payee endorsements and whether funds had been deposited into accounts for
APM, its president, or other individuals or businesses related to APM’s president. To identify
potential discrepancies in amounts distributed to participants, we compared disbursed amounts to
actuary participant listings that showed calculated participant benefits. We did not review
incentive savings plan disbursements because participants should be aware of the specific
amounts due to them, thus reducing the risk of inappropriate administration.

In addition, to determine whether APM properly accounted for pension plan funds and litigation
settlement awards, we issued administrative subpoenas to Washington Mutual Bank—APM’s
bank of record—located in Lake Worth, Florida, on August 3, 1999. The subpoenas requested
all financial records related to Washington Mutual Bank accounts for APM, its president, and
                             6
American Holdings Group. We received and analyzed financial documents for 16 bank
accounts including 4 business accounts, 4 personal accounts for APM’s president, and
8 litigation settlement award accounts. We analyzed the bank accounts by reviewing bank
statements, canceled checks, deposits, withdrawals, and account transfers from the initial opening
of the accounts through account closings or the most recent bank statements available at the time
Washington Mutual complied with the OIG’s subpoena.

To determine whether APM’s billings to the FDIC complied with contract terms and conditions,
we reviewed available contractual agreements for Goldome, Meritor, and AmeriFirst. We also
6
 American Holdings Group was the parent company for three subsidiaries including APM. Based on information that
EBS provided, we included American Holdings Group in our review to determine whether American Holdings Group
commingled pension plan funds with its funds.



                                                        5
reviewed invoices and reimbursement data obtained from DOF and EBS. In addition, we
reviewed trustee disbursement reports for Goldome, Meritor, and Centrust. However, we did not
review the FDIC’s policies and procedures to review and approve invoices that APM submitted
for services related to Goldome, Meritor, Centrust, and AmeriFirst.

To determine whether APM’s billings were valid and adequately supported, on
December 14, 1999, the OIG issued a subpoena to APM’s president requesting documents
supporting the contractor’s billings to the Corporation. Specifically, we requested that APM
provide contracts, contract modifications, invoices, correspondence, employee listings and
classifications, hourly labor rates, project codes, time cards, automated billing system records,
and documentation to support billed expenses. We also interviewed APM’s president to discuss
the requested documentation and APM’s billing practices.

When we delivered the subpoena, APM’s president stated that he would provide all requested
documents to the OIG. On March 11, 2000, APM’s president certified that he had provided the
OIG all records in his possession regarding the items requested in the subpoena. However,
APM’s president did not provide adequate documentation to support charges billed to the FDIC
for any of the institutions included in our review. Specifically, APM’s president only provided
records that related to invoices for the Centrust incentive savings plan. In addition, APM’s
president provided participant distributions for Centrust’s litigation settlement award, including
canceled checks, missing participant data, substitute W-9s, and correspondence. However, those
records were not adequate to determine whether APM billed in accordance with contract terms
and conditions. The OIG views the lack of full compliance with the subpoena as an external
impairment affecting the scope of the audit. Accordingly, we could not determine whether APM
billed the FDIC in accordance with contract terms and conditions or its charges were valid and
adequately supported.

We did not evaluate DRR’s internal controls over pension plans because the OIG concluded that
it could meet the audit objectives more efficiently by conducting substantive tests rather than
                                      7
placing reliance on internal controls. The OIG conducted the audit from May 1999 through
June 2000 in accordance with generally accepted government auditing standards.

RESULTS OF AUDIT

APM did not provide sufficient pension plan documents to the FDIC or its outside audit firm to
facilitate completion of required audits of the Goldome and Meritor pension plans and related
Internal Revenue Service (IRS) reports. Because the numerous attempts to retrieve necessary
pension plan documents proved unsuccessful, EBS officials took appropriate steps to comply
with IRS reporting requirements and terminate the Goldome and Meritor plans.

Although participant distributions made from retirement plan accounts maintained and controlled
by trustees appeared to be appropriate, APM did not always properly account for and distribute
7
 The OIG issued a report entitled Internal Controls Over Receivership Employee Benefit Plans (audit report number
00-001, dated January 12, 2000), that addressed the adequacy of internal controls over receivership employee benefit
plans managed by DRR’s Dallas Field Operations Branch.



                                                           6
litigation settlement awards for Goldome, Centrust, and AmeriFirst. Specifically, we identified
$305,011 in questionable transfers, withdrawals, and lost interest from litigation settlement
award accounts and at least $77,439 in litigation settlement award funds that APM had not
distributed to award participants or returned to the FDIC. The FDIC’s policies and procedures
addressing the administration of pension plans did not include specific guidance regarding
litigation settlement awards.

During our audit we issued a management letter to Dallas Field Operations Branch officials
suggesting that DRR close dormant litigation settlement accounts and recover about $19,000 in
funds for the Centrust and AmeriFirst failed financial institutions. In addition, we questioned
APM’s reimbursements for services performed for the Goldome, Meritor, Centrust, and
AmeriFirst failed financial institutions. We questioned $1,419,202 as unsupported because APM
did not provide documentation to support those billings.

Accordingly, we recommend that the Director, DOA, disallow funds related to questionable
account transactions and unsupported reimbursements made to APM. We also recommend that
the Deputy Director, Dallas Field Operations Branch, DRR, research and distribute, as
appropriate, litigation settlement award participants’ funds and establish policies and procedures
to adequately address the administration and distribution of litigation settlement award funds.


APM DID NOT PROVIDE DOCUMENTATION TO COMPLETE REQUIRED AUDITS

Despite repeated efforts by FDIC program officials, the outside audit firm, and the OIG to obtain
records necessary to complete required audits of the Goldome and Meritor pension plans, APM
did not provide the required records. Accordingly, EBS officials initiated alternative methods to
terminate those plans and coordinated its efforts with the IRS to satisfy the IRS’s reporting
requirements.

Although the OIG obtained additional records from APM during February 1999, EBS officials
determined that those records were not sufficient to assist EBS and its outside audit firm in
completing required audits of the Goldome and Meritor plans. The delay in completing the
audits and terminating the plans was exacerbated by the fact that the FDIC’s former South
Brunswick Consolidated Office provided original pension plan records to APM to administer the
Goldome and Meritor plans and did not make copies of those records for the FDIC’s retention.
Although APM, as an independent plan fiduciary, was required to return all plan documents to
the FDIC, its president did not return the records necessary to complete pension plan audits.

On May 13, 1999, the OIG issued a memorandum to the NESC Assistant Regional Manager for
Closed Banks Administration regarding our efforts to obtain additional records from APM. We
informed the Assistant Regional Manager that EBS officials had determined that the additional
records that the OIG obtained were not sufficient to complete the outstanding audits of the
Goldome and Meritor pension plans. Accordingly, after consulting with the IRS, EBS officials
decided to terminate the pension plans and file the required IRS reports without completing the
audits or by requesting its audit firm to issue qualified opinions on the audits.



                                                7
TRUSTEE ACCOUNT DISBURSEMENTS WERE APPROPRIATE

We sampled 184 disbursements totaling $657,652 from the Goldome and Meritor pension plan
accounts, which the trustees controlling those funds appeared to have appropriately made. Our
review of the participants’ canceled checks, trustee reports for the 184 disbursements, and
APM’s financial records did not identify any discrepancies. The trustee disbursements were
correct in amount and properly accounted for and the recipients properly endorsed each check.


APM DID NOT PROPERLY ACCOUNT FOR LITIGATION SETTLEMENT AWARDS

We questioned $305,011 or about 28 percent of the $1,077,542 in litigation settlement funds that
APM administered because of inappropriate transfers, withdrawals from those funds, and lost
interest income. Table 1 shows the total amount of litigation settlement awards by institution
that APM administered and the amounts that we questioned.

Table 1: Summary of Litigation Settlement Awards That APM Administered
             Institution                              Award                          Amount Questioned
                                                                 a
    Centrust                                        $ 807,267                               $300,186
                                                              b
    AmeriFirst                                        143,542                                      0
                                                                                                     c
    Goldome                                           126,733                                  4,825
    Totals                                          $1,077,542                              $305,011
a
 The Centrust award included the original award amount of $798,912, earned interest of $9,295, and expenses of
$940.
b
 The AmeriFirst award total included the original award amount of $139,306, earned interest of $4,296, and
expenses of $60.
c
 EBS officials were aware of $60,664 in withdrawals from and $57,839 in deposits to the Goldome litigation
settlement account. EBS had refunded the litigation settlement account for the difference of $2,825 plus calculated
interest of $2,000. The award included the original award amount of $116,522 and earned interest of $10,211.

Source: OIG analysis of financial documents for the Goldome, Centrust, and AmeriFirst litigation settlement award
        bank accounts and EBS’s analysis of the Goldome account.

Questionable Transactions Related to Centrust

Our review of financial documents for the Centrust litigation settlement award identified
questionable transactions totaling $300,186 or about 37 percent of the $807,267 awarded to
Centrust litigation participants. During the time that APM distributed the Centrust litigation
settlement award—between August 1996 and August 1997—APM’s president made
questionable withdrawals and account transfers and wrote checks to APM and legal firms
totaling $300,186. Those transactions included withdrawals of $302,186 and deposits totaling
$2,000 for a net amount of $300,186.




                                                         8
Although EBS officials could not address FDIC’s prior practices of reimbursing APM, EBS
officials stated that in current practice only participant distributions and any pre-approved
expenses would be paid from settlement funds. APM’s president stated that he made two
withdrawals from the Centrust litigation settlement award for expenses incurred in administering
the award and made payments to a law firm for professional services. However, APM’s
president could not provide documentation to support his contention that those withdrawals were
appropriate.


Questionable Transactions Related to Goldome

Because APM did not properly account for Goldome litigation settlement award funds, the FDIC,
as plan administrator, had to reimburse the Goldome litigation settlement account $2,825 plus
interest totaling $2,000. EBS officials were aware of questionable transactions related to the
Goldome litigation settlement award account and informed the OIG of those transactions at the
initiation of our audit. Those transactions involved $60,664 in withdrawals from and $57,839 in
deposits to the Goldome litigation settlement award account. The net effect of those withdrawals
and deposits resulted in an account shortage of $2,825 and lost interest of $2,000 based on EBS’s
calculations.

The $60,664 withdrawn from the Goldome account included amounts transferred to APM’s
president, American Holdings Group, and other individuals. APM and an unidentified source
made the deposits into the account. Again, EBS officials stated that under current practice it
would only pay participant distributions and any pre-approved expenses from settlement funds.
The FDIC, as plan administrator, was responsible for safeguarding and distributing plan funds,
including litigation settlement awards. Accordingly, the FDIC refunded the Goldome account
$2,825 for the shortage and $2,000 in interest for a total of $4,825.


UNDISTRIBUTED AND DORMANT LITIGATION SETTLEMENT AWARD FUNDS

Approximately $77,439 of the litigation settlement award funds that APM administered had not
been distributed to award participants or returned to the FDIC based on August 1999 bank
statements for those awards. Of the $77,439 in undistributed funds, $59,820 related to
261 Centrust settlement participants. Documentation that APM provided related to the Centrust
litigation settlement award indicated that an amount greater than the identified $59,820 had not
been distributed for Centrust participants. The remaining $17,619 related to 84 AmeriFirst
litigation settlement award participants. The Centrust and AmeriFirst accounts had been dormant
since November 1997 and July 1997, respectively, except for monthly bank charges against the
AmeriFirst account. Accordingly, we advised Dallas Field Operations Branch officials to close
the accounts and recover those funds.




                                               9
Undistributed Centrust Litigation Settlement Award Funds

APM provided documentation supporting $59,820 that it did not distribute to 261 Centrust
participants. Specifically, the United States Postal Service returned 201 participant checks
totaling $29,932 as “undeliverable.” We did not find any evidence that APM had mailed
replacement checks to those 201 participants, and those 201 recipients did not present checks for
payment. In addition, we identified 60 participants for whom APM had never issued checks
totaling $29,888 because APM did not have addresses for those individuals. However, as of
August 1999, the Centrust litigation settlement account balance was only $1,337.

Although available information showed that 261 Centrust litigation settlement award participants
had not received distributions, the OIG believes that the number of participants that have not
received distributions exceeds 261. Information on returned undeliverable disbursements that
APM’s president provided was not complete. The information included 261 participants whose
names began with the letter “A” through the letter “R.” The original participant listing for the
Centrust litigation settlement award also included participants with names beginning with the
letters “S” through “Z.” On June 12, 2000, APM’s president stated that there were participants
with last names beginning with the letters “S” through “Z” that had not received distributions.
He further stated that he could not provide records for those participants because he could not
locate them. Accordingly, we believe that the amount of undistributed funds is greater than the
$59,820 identified for those 261 participants.

The Centrust litigation settlement award totaled $807,267 for at least 1,320 participants.
However, APM had made payments totaling $505,744 to 1,013 participants, indicating that it had
not distributed funds for at least 307 participants. We believe that the difference in the total
funds available for distribution and the total actually distributed—$301,523—includes the
$300,186 in questionable transfers made by APM. Further, documentation provided by the FDIC
and APM’s president did not explain whether APM could deduct its reimbursement for services
or pay legal fees directly from the Centrust award.


Undistributed AmeriFirst Litigation Settlement Award Funds

APM should have distributed the AmeriFirst litigation settlement award totaling $143,542 to
636 participants. However, APM only made payments totaling $125,923 to 552 participants.
APM did not make payments to 84 participants totaling $17,619. Before transferring
responsibility for the AmeriFirst litigation settlement award to the Dallas office, the FDIC’s
former Southeast Service Center in Atlanta, Georgia, initiated efforts to establish individual
accounts for the missing AmeriFirst participants who APM had not paid. However, neither the
Southeast Service Center nor the Dallas Field Operations Branch established individual accounts
because the $17,619 in undistributed award funds was still in the AmeriFirst bank account as of
August 1999.




                                               10
Litigation Settlement Award Funds in Dormant Accounts

On January 11, 2000, the OIG issued a memorandum to EBG officials informing them of bank
balances totaling $18,956 for the Centrust and AmeriFirst litigation settlement awards located in
Washington Mutual Bank in Lake Worth, Florida. Our analysis of those accounts showed that
the accounts had been dormant since about November 1997 and July 1997, respectively. One of
the accounts was decreasing due to bank service charges. As of August 1999, the Centrust
account totaled $1,337 and the AmeriFirst account totaled $17,619. In response to our
memorandum, on February 28, 2000, EBG officials recovered total available funds of $18,890.
The difference of $66 between the totals cited in our memorandum and the amount that EBG
recovered was due to bank service charges.


ADDITIONAL GUIDANCE NEEDED FOR LITIGATION SETTLEMENT AWARDS

EBG officials responsible for the oversight and monitoring of the administration of pension plans
and litigation settlement awards did not have specific guidance to ensure the proper
administration of litigation settlement award funds. Specifically, officials lacked adequate
guidance to ensure that they properly tracked and safeguarded undistributed participant funds.
Although The Failed Financial Institution Employee Benefits Termination Manual provided
guidance on the administration and termination of employee pension plans, including incentive
savings plans, EBS and EBG officials agreed that the manual did not specifically address the
administration and termination of litigation settlement awards. In addition, EBG’s inventory of
missing pension plan participants, dated April 18, 2000, did not include a complete listing of
those individuals who had not received litigation settlement award fund distributions.

EBG officials confirmed that they were not aware of the undistributed funds for the Centrust and
AmeriFirst litigation settlement award accounts that we brought to their attention. In addition,
EBG officials stated that the FDIC or its agent should establish individual bank accounts or an
account in the FDIC’s name, as receiver, for missing participants when individuals are not
located and funds cannot be distributed. Although information on the AmeriFirst litigation
settlement award indicated that the former Southeast Service Center had initiated efforts to
establish individual accounts for lost participants, EBG officials reviewed their inventory of
missing participant accounts and confirmed that the AmeriFirst participants were not included in
that inventory. Further review indicated that the inventory also did not include missing
participants for Centrust’s litigation settlement award. Officials stated that the inventory was
composed of missing participants for retirement accounts and incentive savings plans and did not
include litigation settlement awards. They further stated that they would not include litigation
settlement award participants unless notified of the existence of a litigation settlement award and
any related lost participants.

In an attempt to provide additional guidance on the responsibilities related to the accounting for
lost participant funds, DRR and DOF were negotiating a memorandum of understanding to
address lost participants for employee benefit plans. However, the draft memorandum did not
address missing participants related to litigation settlement awards. On June 22, 2000, an EBG
official stated that DRR and DOF were continuing their negotiations on the memorandum.


                                                11
We believe that the FDIC needs specific guidance for the administration and termination of
litigation settlement awards to ensure proper accounting, tracking, and distribution of those
funds. The dormant bank accounts and undistributed litigation settlement award funds as well as
the lack of guidance in the FDIC’s employee benefits termination manual and the DRR and DOF
memorandum of understanding being negotiated demonstrate that need.


UNSUPPORTED APM BILLINGS

We could not determine whether $1,419,202 in APM billings that the FDIC paid complied with
contract terms and conditions, because APM did not provide records necessary to make that
determination. APM’s reimbursements were from trustee accounts or from the FDIC for the
payment of invoices submitted for the administration of retirement plans, incentive savings plans,
and litigation settlement awards. Table 2 shows the amount that the FDIC reimbursed APM for
its billings.

Table 2: Summary of FDIC Payments to APM
                                          Amount Paid to APM for
                                    Retirement and         Litigation
           Institution              Incentive Plans       Settlements                          Total
                                                                                    a
    Goldome                            $ 475,552                        $       0          $ 475,552
                                                                                    b
    Meritor                                504,597                              0              504,597
                                                                                    c
    Centrust                               405,470                              0              405,470
                                                     d
    AmeriFirst                                     0                        33,583              33,583
    Totals                             $1,385,619                       $33,583            $1,419,202
a
 Although APM performed some administrative services for the Goldome litigation settlement award, it eventually
turned the responsibility for the distribution of those funds over to the FDIC. Our review of the Goldome award
records did not show any reimbursements to APM for administrative services.
b
    APM did not administer a litigation settlement award for Meritor.
c
The FDIC did not have records related to reimbursements to APM for Centrust’s litigation settlement award.
APM’s president stated that he did not remember how much reimbursement he received for services related to
Centrust’s litigation settlement award.
d
    APM was not involved in the administration of AmeriFirst’s retirement plan.

Source: OIG analysis of trustee reports, APM invoices, DOF financial reports, EBS invoice logs, and APM
        contractual agreements with the RTC and FDIC.



Agreements between the FDIC and APM for the Goldome and Meritor pension plans and the
AmeriFirst litigation settlement award specified that the FDIC would reimburse APM based on
approved labor rates for specified employee classifications or flat fees for litigation settlement



                                                           12
award services. The Meritor agreement also allowed reimbursement for expenses such as
postage, photocopying, and travel. The RTC resolution appointing APM as administrator for the
Centrust incentive savings plan did not specify reimbursement terms and conditions. Further,
because officials could not locate a contractual agreement for the Goldome and Centrust
litigation settlement awards, we could not review those contractual terms and conditions.

Although we obtained copies of some invoices from APM and the FDIC, APM did not provide
documentation such as employee listings and classifications, hourly labor rates, project codes,
time cards, and automated billing system records to support APM’s invoiced charges. In
addition, on June 12, 2000, APM’s president stated that he did not have documentation to
support his billings to the FDIC. Accordingly, we could not determine whether $1,419,202 that
APM billed the FDIC was in accordance with contractual terms and conditions and question that
amount as unsupported.


CONCLUSIONS AND RECOMMENDATIONS

APM did not provide the records necessary to complete audits of the Goldome and Meritor
pension plans. Nonetheless, EBS officials responsible for the administration of pension plans
and litigation settlement awards took appropriate steps to terminate those plans and comply with
the IRS’s reporting requirements. In addition, EBS officials appropriately refunded the Goldome
litigation settlement award account $2,825 for funds that were inappropriately used by APM and
lost interest of $2,000. EBG officials also recovered $18,890 from dormant bank accounts for
the Centrust and AmeriFirst litigation settlement awards. However, the FDIC’s policies and
procedures governing the administration and termination of pension plans did not provide
specific guidance for the administration and oversight of litigation settlement awards.

We questioned $305,011 related to APM’s inappropriate transfers or withdrawals from Goldome
and Centrust litigation settlement award accounts. In addition, APM did not ensure that all funds
due participants were either disbursed or returned to the FDIC for appropriate safeguarding until
distributions could be made. Finally, we questioned $1,419,202 that the FDIC paid APM
because APM did not provide support for its billings. Accordingly, we recommend that the
Director, DOA, take the following actions:

     (1) Disallow $2,825 (questioned costs, all of which is unsupported) for APM’s
         inappropriate withdrawals from the Goldome litigation settlement award account.

     (2) Disallow $2,000 (questioned costs) in lost interest associated with APM’s
         inappropriate withdrawals from the Goldome litigation settlement award account.

     (3) Disallow $300,186 (questioned costs, all of which is unsupported) for APM’s
         inappropriate withdrawals from the Centrust litigation settlement award account.

     (4) Disallow $1,419,202 (questioned costs, all of which is unsupported) that APM billed
         for services related to Goldome, Meritor, Centrust, and AmeriFirst pension plans and
         litigation settlement awards.


                                               13
In addition, we recommend that the Deputy Director, Field Operations Branch, DRR, take the
following actions:

     (5) Research Centrust and AmeriFirst litigation settlement award participants who did not
         receive their payments and take appropriate action to distribute those funds. (We
         documented payments for at least 261 participants totaling $59,860 for Centrust and
         84 participants totaling $17,619 for AmeriFirst that APM did not make.)

     (6) Establish policies and procedures to specifically address the administration of litigation
         settlement awards including the oversight and monitoring of third-party contractors.


CORPORATION COMMENTS AND OIG EVALUATION

On September 15, 2000, the Director, DOA, provided a written response to a draft of this report
addressing recommendations 1, 2, 3, and 4. On October 6, 2000, the Deputy Director, Dallas
Field Operations Branch, DRR, provided a written response to a draft of this report addressing
recommendations 5 and 6. The Director and Deputy Director’s responses agreed with the
recommendations and provided the requisites for a management decision on each of the six
recommendations. We did not summarize the responses because the actions planned or
completed are identical to those recommended. Appendix I to this report presents the Director
and Deputy Director’s responses. Appendix II presents management’s proposed actions on our
recommendations and shows that there is a management decision for each recommendation in
this report.

Based on the audit work, the OIG will report questioned costs of $1,724,213 (of which
$1,722,213 is unsupported) in its Semiannual Report to the Congress.




                                                14
                                                                                APPENDIX I

         Federal Deposit Insurance Corporation
         550 17th Street, NW, Washington, DC 20429                                   Division of Administration




                                                                September 15, 2000

TO:                               Sharon M. Smith
                                  Assistant Inspector General


FROM:                             Arleas Upton Kea
                                  Director, Division of Administration

SUBJECT:                          Management Response to Draft Report Entitled Audit of American
                                  Pension Management’s Administration of Employee Benefit Plans
                                  for Failed Financial Institutions


The Acquisition and Corporate Services Branch (ACSB) has completed its review of the subject
Office of Inspector General (OIG) draft report. The OIG made four recommendations to the
Director, Division of Administration (DOA) related to two audit findings, that included $1,724,213
in questioned costs. Exhibit A summarizes the two audit findings, the related recommendations,
and provides our expected completion dates and the documentation that will confirm that
completion.

Management Decision:

FINDING #1:              American Pension Management (APM) Did Not Properly Account for
                         Litigation Settlement Awards

Recommendation #1: Disallow $2,825 (questioned costs, all of which is unsupported) for APM’s
inappropriate withdrawals from the Goldome litigation settlement award account.

Management Response #1: We agree with the recommendation. DOA will disallow and pursue
recovery of this amount if it cannot be adequately supported by the contractor. A decision
memorandum and a demand letter, if necessary, will confirm our completion of corrective action.

Recommendation #2: Disallow $2,000 (questioned costs) in lost interest associated with APM’s
inappropriate withdrawals from the Goldome litigation settlement award account.

Management Response #2: We agree with the recommendation. DOA will disallow and pursue
recovery of this amount if it cannot be adequately supported by the contractor. A decision
memorandum and a demand letter, if necessary, will confirm our completion of corrective action.




                                                     15
Recommendation #3: Disallow $300,186 (questioned costs, all of which is unsupported) for
APM’s inappropriate withdrawals from the Centrust litigation settlement award account.

Management Response #3: We agree with the recommendation. DOA will disallow and pursue
recovery of this amount if it cannot be adequately supported by the contractor. A decision
memorandum and a demand letter, if necessary, will confirm our completion of corrective action.


FINDING #2: Unsupported APM Billings

Recommendation #4: Disallow $1,419,202 (questioned costs, all of which is unsupported) that
APM billed for services related to Goldome, Meritor, Centrust, and AmeriFirst pension plans and
litigation settlement awards.

Management Response #4: We agree with the recommendation to the extent that any amounts
paid to the contractor exceeded what was fair and reasonable for the services provided. The OIG
has questioned 100 percent of the service fees billed by APM because the contractor did not
provide supporting documentation for those charges. We will confer with our Legal Division and
will disallow and pursue recovery of any unsupported charges if we are unable to determine (a)
what the charges were for, and (b) whether they were fair and reasonable for the service provided.

The schedule for completion of these corrective actions is included in Exhibit A. If you have any
questions regarding this response, you may contact Andrew Nickle, Audit Liaison for the Division
of Administration, at (202) 942-3190.

Attachment

cc:    Howard Furner
       Andrew Nickle
       Richard Johnson




                                                16
      EXHIBIT A

                                                             DIVISION OF ADMINISTRATION
                                                            SUMMARY OF MANAGEMENT DECISION

                                                                                                                       EXPECTED       DOCUMENT
NO.   FINDING DESCRIPTION             QUESTIONED      MANAGEMENT         DESCRIPTION OF CORRECTIVE ACTION              COMPLETION     VERIFYING
                                      COST             AGREEMENT                                                       DATE           COMPLETION
 1    American Pension
      Management did not
      properly account for
      litigation settlement awards.

           a. Goldome litigation            $2,825             Agree     CORRECTIVE ACTION FOR REC #1: We                01/31/2001   Decision Memo or
           settlement award                                              will disallow and pursue recovery of the                     Demand Letter
                                                                         unsupported withdrawals.

           b. Goldome lost interest          2,000             Agree     CORRECTIVE ACTION FOR REC #2: We                01/31/2001   Decision Memo or
                                                                         will disallow and pursue recovery of the                     Demand Letter
                                                                         inappropriate withdrawals.

           c. Centrust litigation          300,186             Agree     CORRECTIVE ACTION FOR REC #1: We                01/31/2001   Decision Memo or
           settlement award                                              will disallow and pursue recovery of the                     Demand Letter
                                                                         unsupported withdrawals.
 2    Unsupported APM billings.          $1,419,202    Partially Agree   CORRECTIVE ACTION FOR REC #4:                   01/31/2001   Decision Memo or
                                                                         We will disallow and pursue recovery of any                  Demand Letter
                                                                         unsupported and unreasonable charges we
                                                                         cannot verify.




      17
Federal Deposit Insurance Corporation
1910 Pacific Avenue, 2nd Floor, Dallas, TX 75201                         Division of Resolutions and Receiverships



                                                                                  October 6, 2000



TO:                   Sharon M. Smith
                      Assistant Inspector General




FROM:                 A. J. Felton, Deputy Director
                      Division of Resolutions and Receiverships
                      Dallas Field Operations Branch


SUBJECT:              Management Response to Draft Report Entitled Audit of American
                      Pension Management's Administration of Employee Benefit Plans
                      for Failed Financial Institutions


In subject report, the OIG made two recommendations to the Dallas Field Operations Branch,
Division of Resolutions and Receiverships (DRR) related to two audit findings.

Undistributed Centrust and AmeriFirst Litigation Settlement Award Funds

Recommendation #5: "Research Centrust and AmeriFirst litigation settlement award participants
who did not receive their payments and take appropriate action to distribute those funds. (We
documented payments for at least 261 participants totaling $59,860 for Centrust and 84 participants
totaling $17,619 for AmeriFirst that APM did not make.)"

Management Response: We concur with the recommendation. The names and social security
numbers for the 261 participants in the Centrust plan and the 84 participants in the AmeriFirst plan
have been requested from the Office of Inspector General (OIG). Using the information provided,
DRR will locate the participants identified by OIG and issue individual checks in an amount equal
to the plan participant's share of the settlement award. Checks returned as undeliverable, if any,
will be handled in accordance with current procedures followed by DRR and the Division of
Finance (DOF). A schedule listing each participant, social security number, mailing address, gross
amount, withholding, and net amount of distribution will confirm completion of the corrective
action. In the event of returned checks, a schedule listing each participant, social security number,
mailing address, gross amount, withholding, and net amount deposited with the FDIC will confirm
completion of the corrective action. Expected completion date is 7/31/2001.


18
Additional Guidance Needed for Litigation Settlement Awards

Recommendation #6: "Establish policies and procedures to specifically address the administration
of litigation settlement awards including the oversight and monitoring of third-party contractors."

Management Response: We concur with the recommendation. The distribution of litigation
settlement awards will be afforded the same monitoring and tracking safeguards as plan assets.
Checks returned as undeliverable, if any, will be handled in accordance with the current procedures
followed by DRR and DOF. Receivership Benefit Specialists will be required to complete training
courses offered by the Acquisition Services Branch (ASB) for oversight managers and technical
monitors. A memorandum advising staff of this policy will confirm completion of this corrective
action. Expected completion date is 12/31/2000.

If you have any questions regarding the response, you may contact Ben Groner, Supervisory
Terminations Specialist, Receivership Benefits, at 972.761.3167.




Cc: James Forrestal
    Giovanni Recchia
    William Ostermiller
    Alan Rouse
    Ben Groner
    Steven Hester
    Mike Lamb




19
                                                                                                                                                   APPENDIX II
                                                 MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report on the status of management decisions on its recommendations in its semiannual
reports to the Congress. To consider the FDIC’s responses as management decisions in accordance with the act and related guidance, several conditions are
necessary. First, the response must describe for each recommendation

     •   the specific corrective actions already taken, if applicable;
     •   corrective actions to be taken together with the expected completion dates for their implementation; and
     •   documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any
disagreement. In the case of questioned costs, the amount that the FDIC plans to disallow must be included in management’s response.

If management does not agree that it should implement a recommendation, it must describe why it does not consider the recommendation valid.

Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation confirming
completion of corrective actions are responsive to its recommendations.

This table presents management’s responses on recommendations in our report and the status of management decisions. The OIG based the information for
management decisions on management's written response to our report.
                                                                                    Expected      Documentation That                  Management
   Rec.                                                                            Completion     Will Confirm Final     Monetary      Decision:
  Number               Corrective Action: Taken or Planned / Status                   Date              Action           Benefits      Yes or No
     1        The Director, DOA, agreed with the recommendation and stated          01/31/01    Decision memorandum or     $2,825        Yes
              that DOA will disallow and pursue recovery of the questioned costs                demand letter.           disallowed
              that the contractor cannot adequately support.                                                                costs
     2        The Director, DOA, agreed with the recommendation and stated          01/31/01    Decision memorandum or     $2,000        Yes
              that DOA will disallow and pursue recovery of the questioned costs                demand letter.           disallowed
              that the contractor cannot adequately support.                                                                costs
     3        The Director, DOA, agreed with the recommendation and stated          01/31/01    Decision memorandum or    $300,186       Yes
              that DOA will disallow and pursue recovery of the questioned costs                demand letter.           disallowed
              that the contractor cannot adequately support.                                                                costs




20
                                                                          Expected     Documentation That                     Management
  Rec.                                                                   Completion    Will Confirm Final        Monetary      Decision:
 Number         Corrective Action: Taken or Planned / Status                Date             Action              Benefits      Yes or No
     4    The Director, DOA, agreed with the recommendation. The          01/31/01    Decision memorandum        $1,419,202      Yes
          Director stated that DOA will disallow and pursue recovery                  or demand letter.          disallowed
          of the unsupported questioned costs that it cannot determine                                              costs
          (a) what the charges were for and (b) whether the charges
          were fair and reasonable for the service provided.
     5    The Deputy Director, Dallas Field Operations Branch, DRR,       07/31/01    Participant distribution      $-0-         Yes
          agreed with the recommendation. The Deputy Director                         list.
          stated that DRR would locate the participants who did not
          receive their litigation settlement payments and issue them
          checks for their share of the settlement awards.
     6    The Deputy Director, Dallas Field Operations Branch, DRR,       12/31/00    Policy memorandum.            $-0-         Yes
          agreed with the recommendation. The Deputy Director
          stated that DRR would afford the distribution of litigation
          settlement awards the same monitoring and tracking
          safeguards as pension plan assets.




21
